WAIVER
Supreme Court of the United States
No. 21-5594
Daniel J. Heffley
v.

Pennsylvania, et al.

(Petitioner)

(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by the
Court.
Please check one of the following boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my appearance as
Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain name change since
bar admission):

Signature:

/s/Geri Romanello St. Joseph

Date:

09/27/2021

(Type or print) Name

Geri Romanello St. Joseph
Mr.
Ms.

Mrs.

Miss

Firm

Administrative Office of Pennsylvania Courts

Address

1515 Market Street, Suite 1414

City & State

Philadelphia, PA

Phone

215-560-6300

Zip

19102

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF PRO SE. PLEASE
INDICATE BELOW THE NAME(S) OF THE RECEIPIENT(S) OF A COPY OF THIS FORM. NO
ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc:

Daniel J. Heffley
6911 Perrysville Avenue
Pittsburgh, Pa 15202

Obtain status of case on the docket. by phone at 202-479-3034 or via the internet at http://www.supremecourtus.gov. Have the
Supreme Court docket number available.

